        July 15, 2005




 Acquisition
 Source Selection Decisions for the
 Air Force Small Diameter Bomb
 Program
 (D-2005-091)




This special version of the report has been revised to omit source selection sensitive,
contractor proprietary, or attorney/client privilege information.




                        Department of Defense
                    Office of the Inspector General
   Quality                            Integrity                  Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
ACC                   Air Combat Command
CAD                   Component Advanced Development
CSAF                  Chief of Staff of the Air Force
GAO                   Government Accountability Office
J&A                   Justification and Approval
SDB                   Small Diameter Bomb
SDD                   System Development and Demonstration
SECAF                 Secretary of the Air Force
SSA                   Source Selection Authority
               Department of Defense Office of Inspector General
Report No. D-2005-091                                                        July 12, 2005
   (Project No. D2004-D000CH-0164.000)

                  Source Selection Decisions for the Air Force
                       Small Diameter Bomb Program

                                 Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments should read this report because it concerns
source selection decisions that impacted a competitive procurement strategy for the Small
Diameter Bomb weapon system.

Background. This audit was performed in response to a referral from the Defense
Criminal Investigative Service. The Defense Criminal Investigative Service requested
that we review a matter that surfaced during its investigation of a senior official from The
Boeing Company (Boeing) and the former Principal Deputy Assistant Secretary of the
Air Force for Acquisition and Management.

The source selection strategy for the Small Diameter Bomb (SDB) program employed a
downselect process that included a full and open competition wherein three contractors
submitted proposals to compete in a limited competition during the Component
Advanced Development (CAD) phase. In September 2001, the former Principal Deputy
Assistant Secretary of the Air Force for Acquisition and Management selected two
contractors, Boeing and Lockheed Martin (Lockheed) to participate in the 2-year limited
competition CAD phase. The program contained two weapon variants–one effective
against fixed and non-moving relocatable targets (Phase I) with a planned fourth quarter
FY 2006 fielding, and a second variant (Phase II) effective against moving targets with a
planned fielding date 3 years later. The strategy for developing and fielding different
variants progressively based on technology maturation is considered “spiral” or
“incremental” development. Boeing and Lockheed each received $47 million to design
their SDB weapon and carriage system, develop and test subsystems, and conduct
system-level, risk-reduction efforts for the fixed target SDB variant (Phase I). The
contractors were also to design for future integration of a seeker and were to begin
developing and testing autonomous target recognition algorithms for use in identifying
moving targets (Phase II) for a future spiral or increment. The winning contractor would
then continue through to the System Development and Demonstration Phase and into
production for both variants of the SDB weapon system. However, due to a shortfall in
funding, senior Air Force officials agreed to defer the Phase II program requirements and
changed the source selection evaluation criteria. The Air Force also determined that a
sole-source justification and approval was necessary to make the downselect to a single
contractor because of the limited competition CAD phase.

Based on the source selection decision by the SDB Program Executive Officer, on
October 17, 2003, the SDB contracting officer awarded a cost-plus-award-fee-type
contract (FA8682-04-C-0019) to Boeing for the Phase I (fixed targets) and carriage
system portion of the SDB Program. After the contract was awarded, the Air Force
issued an addendum to the sole-source justification and approval to include the
previously deferred Phase II requirements. On November 10, 2004, Lockheed filed a
formal protest with the Government Accountability Office concerning the SDB
procurement because of the former Principal Deputy Assistant Secretary of the Air Force
for Acquisition and Management bias towards Boeing. On February 18, 2005, the
Government Accountability Office sustained the Lockheed protest.
Results. Senior Air Force officials made decisions during the source selection process
that would have resulted in the sole-source award to Boeing of the previously deferred
Phase II SDB program requirements (moving targets). Specifically, the senior Air Force
officials:
   •   deferred the Phase II requirements to a future spiral or increment and changed the
       source selection evaluation criteria during the evaluation period to significantly
       reduce emphasis on the Phase II requirements during the downselect, and
   •   provided the contractors (Boeing and Lockheed) with conflicting information on
       the procurement strategy for the deferred Phase II requirements and failed to
       adequately document that strategy.
The SDB Program Office stated that the planned procurement strategy mitigated program
cost and performance risk because Boeing intended to compete the seeker technology, the
key component of the Phase II technology. However, the procurement strategy did not
provide Lockheed an opportunity to compete as the prime contractor for the Phase II
program requirements and mitigating any potential bias by Boeing in the selection of a
subcontractor may be difficult. On February 18, 2005, the Government Accountability
Office sustained the Lockheed SDB procurement protest because the former Principal
Deputy Assistant Secretary of the Air Force for Acquisition and Management was
involved in the decision making process. Further, the Government Accountability Office
recommended that the Air Force conduct a competitive procurement for the SDB Phase II
requirements.
The Under Secretary of Defense for Acquisition, Technology, and Logistics needs to
provide oversight for and require that the Air Force procure the previously deferred
Phase II requirements competitively as required by the General Accountability Office
decision. In addition, the Under Secretary of Defense for Acquisition, Technology, and
Logistics needs to develop guidance relating to spiral or incremental development
programs for critical products and technologies to ensure the acquisition strategy
complies with the “Competition in Contracting Act of 1984” and provides fairness and
best value for DoD. See the Finding section of the report for the detailed
recommendations.
Management Comments. The Director, Defense Systems of the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics concurred with the first
recommendation and partially concurred with the second recommendation. The Director
stated the Air Force was executing a revised acquisition strategy, subject to Office of the
Secretary of Defense’s review, based on results of the sustained GAO protest. The
Director also stated that existing regulations and policy address spiral development for
program managers and the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics (Defense Procurement and Acquisition Policy) would review
the guidance for completeness and clarity. See the Finding section of the report for a
discussion of the management comments and the Management Comments section of the
report for the complete text of the comments.


                                             ii
Table of Contents
Executive Summary                                                             i

Background                                                                    1

Objective                                                                     3

Finding
     Source Selection Decisions for Small Diameter Bomb Program               4

Appendixes
     A. Scope and Methodology                                                14
           Prior Coverage                                                    14
     B. Timeline of Events                                                   15
     C. Report Distribution                                                  17

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   19
Background
    This audit was performed in response to a “Referral for Audit Review” from the
    Defense Criminal Investigative Service relating to procurement irregularities that
    surfaced during its investigation of a senior official from The Boeing Company
    (Boeing) and the former Principal Deputy Assistant Secretary of the Air Force for
    Acquisition and Management (former Principal Deputy). The procurement
    irregularities related to the award of the Small Diameter Bomb (SDB) contract to
    the McDonnell Douglas Corporation, a wholly owned subsidiary of Boeing.
    Representatives from Lockheed Martin (Lockheed) claimed that the Phase II
    (moving targets) portion of the SDB Program had been eliminated from the
    source selection process, providing Boeing an advantage in winning the contract.

    SDB Weapon System. The SDB weapon system will provide the warfighter with
    a 250-pound class weapon and smart carriage that is common across a wide
    spectrum of fighter and bomber platforms. The SDB Phase I weapon uses Global
    Positioning System/Inertial Navigation System guidance to reduce collateral
    damage and is combat-effective in adverse weather to achieve battlefield
    effectiveness against fixed targets–covered, concealed, hardened, or relocatable.
    Figure 1 shows the SDB Phase I weapon and four-place carriage system.




    Figure 1. SDB Phase I Weapon and Four-Place Carriage System

    SDB Program Costs. The SDB Program is an evolutionary Acquisition
    Category 1D Program currently in the System Development and Demonstration
    (SDD) Phase of the acquisition cycle. The source selection strategy for the SDB
    Program employed a downselect process that included a full and open
    competition wherein three contractors submitted proposals to compete in a limited
    competition during the Component Advanced Development (CAD) phase. In
    September 2001, the former Principal Deputy selected two contractors, Boeing
    and Lockheed, to participate in the 2-year limited competition CAD phase. The
    program contained two weapon variants–one effective against fixed and non-
    moving relocatable targets (Phase I) with a planned fourth quarter FY 2006
    fielding, and a second variant (Phase II) effective against moving targets with a
    planned fielding date 3 years later. The strategy for developing and fielding
    different variants progressively based on technology maturation is considered
    “spiral” or “incremental” development.




                                        1
On October 17, 2003, based on the source selection decision by the SDB Program
Executive Officer, the SDB contracting officer awarded a cost-plus-award-fee-
type contract (FA8682-04-C-0019) worth approximately $151 million to Boeing
for the Phase I portion (fixed targets and carriage system) of the SDB Program.
Boeing advanced to the SDD Phase of the SDB Program and will continue to
develop and produce a 250-pound precision-guided weapon that can be launched
from fighters, bombers, or unmanned aerial vehicles at fixed targets more than
40 miles away. The costs shown in the FY 2004 Selected Acquisition Report,
when combined with the military construction and support costs, place the total
value of the Phase I program at $2.59 billion if the Air Force procures the
24,000 Phase I weapons and 2,000 carriages planned for the next 16 years. The
cost estimates briefed to senior Air Force leadership for incorporation into the
FY 2004 Program Objective Memorandum showed the total value of the program
at about $4.27 billion when quantities originally identified for the program
(12,000 Phase I and 12,000 Phase II) were included. Table 1 shows a breakout of
the program costs in then-year dollars with and without Phase II.

                  Table 1. SDB Program Costs (in millions)
                                         Phase I &                 Phase I, II &
  Cost Categories                        Carriage                    Carriage
   Development                            $ 380.3                   $ 681.3
   Production                             1,436.2                    2,814.8
   Military Construction                     47.7                       47.7
   Operational Support                      723.6                      723.6
  Total Price                             $2,587.8                  $4,267.4

Lockheed Protests Phase II Sole-Source Award to Boeing. On November 10,
2004, Lockheed filed a protest with the Government Accountability Office
(GAO) relating to the SDB SDD contract award to Boeing (RFP No. F08635-03-
R-0038).
       In regard to that procurement, Lockheed Martin protests (i) the Air
       Force’s evident intention to reinstate a particular scope of work (known
       as Phase II) to a Boeing contract where that scope was removed from
       the SDB SDD competition under [the former Principal Deputy’s]
       corrupt direction, as well as (ii) the underlying award of the SDB
       contract because it now appears that the work scope for the SDD
       competition was defined not by the Agency’s legitimate needs, but
       through [the former Principal Deputy’s] corrupt dealings with Boeing.
       Based on the facts that recently came to light, one must surmise that the
       deletion and reinstatement of Phase II are rooted in [the former
       Principal Deputy’s] corrupt relationship with Boeing, which
       necessarily taints the procurement. . .




                                          2
    On February 18, 2005, GAO sustained Lockheed’s protest and stated:
            the record showed that [the former Principal Deputy] was involved in
            the decisionmaking process that culminated in changes made to
            evaluation factors-including deletion of specific technical
            requirements. The record further showed that the Air Force currently
            intends to amend Boeing’s contract on a sole-source basis to add those
            previously deleted requirements. GAO recommended that, rather than
            making this sole-source addition to Boeing’s contract, the Air Force
            conduct a competition for those requirements.

    Change in Milestone Decision Authority. On March 25, 2005, the Acting
    Under Secretary of Defense for Acquisition, Technology, and Logistics notified
    the Secretary of the Air Force that:
            Effective immediately, all Air Force ACAT [Acquisition Category] 1C
            programs are hereby designated as ACAT 1D programs. This change
            is necessary given the vacancies in the Air Force and the uncertainties
            in the planned management structure. My staff and I are happy to
            work with you as these important vacancies are filled to ensure that the
            organization of Air Force acquisition oversight provides adequate
            checks and balances to guarantee the integrity of the system.



Objective
    The overall audit objective was to evaluate the Phase I and Phase II procurement
    strategy used by the Air Force for the SDB weapon system and the decision to
    award the Phase II contract sole-source to Boeing. See Appendix A for a
    discussion of the scope, methodology, and prior coverage related to the objective.




                                               3
           Source Selection Decisions for Small
           Diameter Bomb Program
           Senior Air Force officials made decisions during the source selection
           process that would have resulted in the sole-source award to Boeing of the
           previously deferred Phase II SDB program requirements (moving targets).
           Specifically, the senior Air Force officials:

               •   deferred the Phase II requirements to a future spiral or increment
                   and changed the source selection evaluation criteria during the
                   evaluation period to significantly reduce emphasis on the Phase II
                   requirements during the downselect; and

               •   provided the contractors (Boeing and Lockheed) with conflicting
                   information on the procurement strategy for the deferred Phase II
                   requirements and failed to adequately document that strategy.

           The SDB Program Office stated that the planned procurement strategy
           mitigated program cost and performance risk because Boeing intended to
           compete the seeker technology, the key component of the Phase II
           technology. However, the procurement strategy did not provide Lockheed
           an opportunity to compete as the prime contractor for the future Phase II
           program requirements. Further, mitigating any potential bias by Boeing in
           the selection of a subcontractor may be difficult. On February 18, 2005,
           GAO sustained the Lockheed SDB procurement protest because the
           former Principal Deputy was involved in the decision making process.
           Also, GAO recommended that the Air Force conduct a competitive
           procurement for the SDB Phase II requirements.


Spiral or Incremental Development and Source Selection
  Process
    Senior Air Force officials made decisions during the source selection process that
    would have resulted in the sole-source award to Boeing of the previously deferred
    Phase II SDB program requirements (moving targets). The following summarizes
    the key decisions made by Air Force officials. Appendix B provides the timeline
    of when those decisions occurred.

    Directed Use of Spiral or Incremental Development. The Chief of Staff of the
    Air Force (CSAF) mandated that an SDB capable of defeating “fixed targets” be
    fielded in the fourth quarter of FY 2006 and supported fielding the “80 percent”
    solution with a spiral or increment (evolutionary acquisition) to the full capability
    (moving targets). DoD Instruction Number 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003, defines both “Spiral” and “Incremental”
    Development.




                                          4
       Spiral Development. In this process a desired capability is identified,
       but the end-state requirements are not known at program initiation.
       Those requirements are refined through demonstration and risk
       management; there is continuous user feedback; and each increment
       provides the user the best possible capability. The requirements for
       future increments depend on feedback from the user and technology
       maturation.

       Incremental Development. In this process, a desired capability is
       identified, an end-state requirement is known, and that requirement is
       met over time by developing several increments, each dependent on
       available mature technology.

On April 10, 2001, an Acquisition Strategy Panel, chaired by the former Principal
Deputy, met and developed a strategy for acquiring the SDB. To meet the
warfighter’s need, the Acquisition Strategy Panel adopted a program that
contained two weapon variants–one effective against fixed and non-moving
relocatable targets (Phase I) with a fourth quarter FY 2006 fielding, and a second
variant (Phase II) effective against moving targets with a fielding date 3 years
later. The strategy called for developing both weapon variants concurrently to
provide the warfighter with the lower risk capability (Phase I) as soon as possible,
while allowing the higher risk capability (Phase II) to mature prior to being
fielded.

Downselect Source Selection Process. The Air Force employed a downselect
process to select the source for producing the SDB weapon system. On June 29,
2001, the SDB Program Office issued a solicitation requesting proposals for the
CAD Phase of the SDB Program. The former Principal Deputy was the Source
Selection Authority (SSA). The Request for Proposal stated the Government
intended to award two contracts as a result of the competition. On September 28,
2001, based on evaluation of the competing proposals, the former Principal
Deputy selected Boeing and Lockheed to advance to the CAD Phase and
participate in a limited competition (initial downselect).

Boeing and Lockheed each received $47 million to design their SDB weapon and
carriage system, develop and test subsystems, and conduct system-level, risk-
reduction efforts for the fixed target SDB variant and carriage system. The
contractors were also required to design for future integration of a seeker and to
begin developing and testing autonomous target recognition algorithms for
moving targets (Phase II). The contractors were to be evaluated through periodic
evaluations to enable each contractor to see the strengths and weaknesses of its
program when evaluated against the source selection criteria. The winning
contractor would then continue through SDD, and into production for both
variants of the SDB weapon system (final downselect).




                                         5
Deferred Requirements and Changes to Source Selection
  Evaluation Criteria
    Senior Air Force officials deferred the Phase II requirements to a future spiral or
    increment and changed the source selection evaluation criteria during the
    evaluation period to significantly reduce emphasis on the Phase II requirements
    during the downselect.

    Funding Shortfall. In December 2001, representatives from the Air Combat
    Command (ACC), Langley Air Force Base, Virginia, determined that due to real
    world events (the need to sustain the current capability in support of the Global
    War on Terrorism and Homeland Defense), it was unable to fully fund the SDB
    Program in the FY 2004 Program Objective Memorandum. Thus, ACC, in
    conjunction with the SDB Program Office, started exploring the options available
    for the SDB Program.

    Boeing Proposal for Early Downselect and Contractor Teaming. On
    January 25, 2002, Boeing presented a proposal to the former Principal Deputy, the
    SSA at the time, advocating for early downselect in its favor to provide the
    warfighter an SDB capability much earlier than originally planned. When the
    SDB Program Office learned of the discussions, the SDB Program Office
    conveyed its concern that Boeing’s technology was not sufficiently mature at that
    point and that there was no reason for an early downselect decision “except to
    reduce emphasis on [Phase II] at downselect.” After the brief, the former
    Principal Deputy directed the SDB Program executive officer to determine
    whether both contractors had strategies to accelerate delivery of an SDB
    capability and directed the SDB Program Office to prepare a brief proposing
    possible alternatives for accelerating the fielding of the Phase I weapon.

    On March 6, 2002, Boeing and Lockheed presented their acceleration strategies to
    the former Assistant Secretary of the Air Force for Acquisition (former Assistant
    Secretary) and the former Principal Deputy. In its briefing, Boeing again
    advocated for an early downselect decision, stating its Phase I technology was
    mature and that it was willing to cooperate with Lockheed and incorporate the
    best value components. Boeing also stated it was able to conduct the seeker
    competition between Lockheed and Northrop Grumman and select the best
    solution for the warfighter.

    On March 8, 2002, the SDB program manager presented a brief to the former
    Assistant Secretary and the former Principal Deputy on the “Small Diameter
    Bomb (SDB) Acceleration Potential,” that showed Lockheed was “stronger” in
    the Phase II program requirements. The briefing also mentions “exploring
    partnership opportunities,” that “there [was] no clear winner at [that] point,” and
    although “Boeing Report[ed] They Can Deliver Now—They Cannot.” On
    March 12, 2002, and March 18, 2002, the CSAF and the Secretary of the Air
    Force (SECAF) were presented the same brief. On March 19, 2002, the SDB
    program manager stated the outcome of the SECAF meeting was that the SECAF
    believes in competition and that he made it “crystal clear . . . we are in this for the
    competition benefits.” A “Winner Take All Downselect remains at [the] end of
    Sep[tember] [20]03.”


                                           6
           Program Options. On April 5, 2002, the Commander, ACC sent an e-mail to the
           CSAF that identified a $385.5 million funding shortfall, after deferring about
           $100 million in “wish list” requirements to later program spirals or increments.
           The e-mail further stated that:
                     My staff engaged with the acquisition community to develop options to
                     work within, or close to, the [FY 2003] funding profile. They have
                     identified a restructured option which defers additional requirements
                     and reduces the $385.5 disconnect to $10M. This restructured program
                     offers a more capable Phase I weapon, along with a growth path to a
                     Phase II capability. While the words say “Defer Phase II”, the Phase II
                     capability against mobile targets is actually still achievable (using an
                     Affordable Moving Surface Target Engagement {AMSTE} concept)
                     and can conceivably be attained with in the restructured program.

           Legal Issues Associated With the Program Options. As a part of this
           restructuring effort, the Air Force evaluated how to continue the source selection
           process because the requirement changes were a significant departure from the
           original program. A March 11, 2002, background paper requested by the former
           Assistant Secretary from the Air Force General Counsel discussed contract and
           legal issues relating to the proposed changes to the SDB program. The paper
           provided an opinion on the legal grounds for a possible protest if requirements
           were deferred and the SDB downselect criteria were changed to reflect emphasis
           on new requirements:∗

           Approach for Continuing the Source Selection Process. The former Assistant
           Secretary and the former Principal Deputy selected the approach for continuing
           the source selection process. According to e-mails obtained from an Air Force
           General Counsel representative discussing the approach, the plan called for
           notifying the contractors of the change in the requirements and evaluation criteria,
           giving them the opportunity to comment on the proposed revised evaluation
           criteria, obtaining their agreement with the new criteria, and proceeding with the
           current schedule. In April 2002 and early May 2002, the Directorate of
           Requirements briefed the Commander, ACC; the CSAF; and the SECAF on the
           revised program that deferred the Phase II requirements. The SDB program
           manager stated, in an e-mail, that the SECAF briefing resulted in “crystal clear
           decisions.” The SECAF directed developing a common four-place carriage
           system, deferring the seeker work (Phase II) and integrating the bomb onto the
           B-1B aircraft, and supported developing the fixed target version of the weapon
           first with enhanced precision. The SECAF also “made [it] clear he wants to NOT
           har[d]link the fy03 sdb winner with the eventual choice of prec[ision] versus
           movers [Phase II weapon] solution.”

           Changes to Evaluation Criteria. According to the SDB program manager, the
           Air Force met with both contractors and negotiated changes to the source
           selection criteria. The changes added new requirements for precision and a four-
           place carriage and significantly reduced the emphasis that Phase II had during
           downselect. The original source selection evaluation criteria gave equal

∗
    This section of the report contains source selection sensitive, contractor proprietary, or attorney/client
    privilege information that has been omitted.



                                                         7
    weighting to the Phase I and Phase II weapon, and the carriage system. The
    revisions that the Program Executive Officer, the new SSA, approved in
    August 2002 to the evaluation criteria, and that were incorporated through
    modifications into the Boeing and Lockheed contracts, shifted emphasis from
    Phase II tasks to Phase I tasks. As Table 2 shows, the weightings of the new
    criteria dedicated to Phase I and the carriage system increased to 40 percent and
    25 percent respectively, while the weighting of criteria dedicated to Phase II tasks
    decreased from 23 percent to 2 percent.

                    Table 2. Changes to the Emphasis of Evaluation Criteria†
       Pre-SECAF Directed Restructuring                                                           Factor
       Factor                            Phase I      Phase II      Carriage      Other          Weighting
       Proposal Risk                       10           10            10            -               30
       Affordability                        8            8              8           2               26
       Contractor Performance               -             -             -          26               26
       Mission Capability                   5            5              5           3               18
        Total                              23           23            23           31             100%
       Post-SECAF Directed Restructuring                                                          Factor
       Factor                            Phase I      Phase II      Carriage      Other          Weighting
       Proposal Risk                       20            -            10            -               30
       Affordability                       10            -            10            6               26
       Contractor Performance               -            -              -          26               26
       Mission Capability                  10            2              5           1               18
        Total                              40            2            25           33             100%
       †
           Auditor assigned weightings based on our interpretation of Source Selection Plan criteria.


Conflicting Information and Inadequate Documentation
    The SDB program manager and contracting officer provided the contractors
    (Boeing and Lockheed) with conflicting information on the procurement strategy
    for the deferred Phase II requirements and failed to adequately document that
    strategy. Specifically, the SDB contracting officer notified Boeing and Lockheed
    that “Winning development and production of the SDB Program does not
    guarantee award of follow-on work for precision against moving targets [Phase II
    requirements].” According to the contracting officer, the Air Force prepared a
    sole-source Justification and Approval (J&A) as required by Federal Acquisition
    Regulation to make the downselect to a single contractor. The SDB Program
    Executive Officer, the program manager, and the contracting officer then signed
    an addendum to the original sole-source J&A for the program that either clarified
    the existing authorizations or reinstated the previously deferred Phase II SDB
    program requirements after the fixed targets and carriage System Development
    and Demonstration contract (Phase I) had been awarded to Boeing.

    Stop-Work and Choice for Phase II. On May 13, 2002, the SDB contracting
    officer sent letters to Boeing and Lockheed that directed them to “stop work on all
    tasks unique to the development of the Phase II SDB, including the seeker and


                                                      8
ATR [Autonomous Target Recognition] algorithm tasks.” The letters further
stated that “due to possible changes in requirements identified by ACC leading to
subsequent reprioritization of the program’s objectives, it may become necessary
to modify the scope of the program.”

On May 23, 2002, the SDB contracting officer sent additional letters notifying
Boeing and Lockheed that the Phase II choice was uncertain and that the SECAF
directed the following changes:
       Develop a Phase I weapon system capable of being highly effective
       against the SDB targets[;]

       Design the SDB weapon system architecture to be as open as
       reasonable to allow incorporation of future technologies to allow
       precision attack against moving targets. Expend no further effort on
       any other current and planned “Phase II” activities[; and]

       Winning development and production of the SDB Program does
       not guarantee award of follow-on work for precision against
       moving targets. [emphasis added]

Different Positions on Phase II Requirements. On June 7, 2002, the SDB
program manager briefed Boeing and Lockheed on the SECAF-directed changes
and reiterated the Air Force’s solution for Phase II was uncertain. According to
the SDB program manager, SECAF recognized there were multiple technologies
under development to address moving targets and that they required additional
maturation before it became apparent which one was best at defeating moving
targets. As such, SECAF did not want to tie the Phase I SDB winner to the
eventual choice of “precision versus movers.” The briefing charts state that the
Phase I weapon should be interoperable with multiple potential solutions and
indicate that the Air Force had not yet determined if or how the Phase II
capability would be obtained in the future.

        Lockheed Position. Lockheed representatives stated that once the Air
Force deferred the Phase II requirements, the company considered dropping out
of the competition. The representatives stated the company felt its position was
disadvantaged because the deferral eliminated the area in which they believed
they possessed a competitive advantage. The representatives also stated the only
reason that Lockheed decided to remain in the competition was because the Air
Force told them they would have the opportunity to compete for the Phase II
requirement in the future.

         SDB Program Manager Position. The SDB program manager stated
that at a November 2002 General Manager’s Conference, he informed various
Lockheed personnel that the program’s intent was to have the winning SDB
contractor perform potential follow-on variants of the SDB. The SDB program
manager further stated the SDB weapon was a vehicle that would satisfy the
Phase I objective of a fixed target kill, but given the requirement to create an




                                        9
           Interface Control Document† to allow integration of future avionics, would also
           offer the ability to augment Phase I with a moving target kill. Hence, according
           to the SDB program manager, the competition was very important to both Boeing
           and Lockheed due to the program’s future business potential.

           Sole-Source J&A. On June 5, 2003, the SDB Program Office prepared a sole-
           source J&A for the program as required by Federal Acquisition Regulation to
           make the downselect to a single contractor. The J&A was signed by the Program
           Executive Officer, the program director, the program manager, the contracting
           officer, a legal reviewer, and the competition advocate; and approved by the
           former Assistant Secretary. The J&A authorized the following actions:

                •    downselect to a single contractor for the SDD Phase of the SDB Program
                     from one of the two incumbent CAD contractors;

                •    sole-source award for acquisition of the SDB weapon system to the
                     winning SDB contractor and for SDB sustainment efforts; and

                •    sole-source award of future spiral development activities assuming that
                     the SDB contractor is meeting contractual commitments and that spiraling
                     the SDB fixed target variant represents the best value to the Government.
                     Spirals may include additional requirements due to new users and
                     upgraded performance capabilities.

           It is unclear as to whether the future spiral activities discussed in this initial J&A
           related specifically to the Phase I weapon or whether the J&A also included the
           “multiple potential solutions” for the Phase II weapon.

           Boeing Winner of Limited Competition. On August 28, 2003, the Source
           Selection Decision Document signed by the SSA (the Program Executive Officer)
           directed the award to Boeing and on October 17, 2003, the SDD Phase contract
           was awarded to Boeing for Phase I. The SSA concluded that “Boeing is superior
           based on my integrated assessment of all four factors, Risk, Affordability,
           Contractor Performance, and Mission Capability.”*
           Addendum to Sole-Source J&A. According to an Air Force General Counsel
           representative after the decision was made to award the Phase I and carriage
           system contract to Boeing, the Office of the Secretary of Defense General
           Counsel nonconcurred with the SDB acquisition strategy as described in the
           original J&A.∗ In a show of good faith, the SDB Program Office attempted to
           change the disputed wording to something more amenable. Although the Office
           of the Secretary of Defense General Counsel still remained concerned about the
           breadth of the sole-source J&A, the matter was within the purview of the Air
           Force. On November 25, 2003, the former Assistant Secretary approved an
           addendum to the sole-source J&A. This supplement to the J&A either redefined

†
    The Interface Control Document defines the requirements for the logical, physical, and electrical
    interfaces that can allow future growth and integration of subsystems that allow for precision against
    moving targets.
∗
    This section of the report contains source selection sensitive, contractor proprietary, or attorney/client
    privilege information that has been omitted.



                                                         10
    or clarified the future spiral development activities as “the presently-deferred
    moving target variant and the capability for employment of the weapon by other
    services.”


Competition for Deferred Requirements
    On November 26, 2003, Lockheed sent a letter to the SDB Program Office stating
    that they were “surprised to learn of the referenced Justification and Approval
    document that changed the future spiral development activities for the SDB
    program to sole-source.” The letter further stated that “Lockheed is interested in
    competing as a prime contractor for the spiral development capability, including
    spirals addressing moving targets” and asked if the “spiral will be open for
    competition.” In response to the Lockheed inquiry, the SDB contracting officer
    stated “[i]f and when the Government decides to proceed with a moving target
    capability, I will comply with the requirement of FAR [Federal Acquisition
    Regulation] 5.201(b)(1) to synopsize the proposed action. In accordance with
    note 22 of the notice, it will be my intent to solicit and negotiate with only one
    source, McDonnell Douglas [Boeing] under the Authority of FAR 6.302.” The
    Air Force planned to have Boeing hold a competition for the Phase II unique
    requirements. Air Force officials stated that the Air Force was developing criteria
    that would provide sufficient incentives to Boeing to make the “right choice.”
    Under the approach, Boeing would integrate the winning contractor’s seeker and
    guidance system into the Phase I vehicle and carriage system.

    Lockheed representatives did not share these feelings and stated the probability of
    a bid was unlikely if Boeing were the SSA. Lockheed representatives stated the
    company was reluctant to participate in a “Boeing-Run” seeker competition
    because it does not believe they would receive fair consideration. The
    representative also stated that Lockheed has historically won a very low
    percentage of the competitions it entered where Boeing was the SSA. In addition,
    the representative stated Lockheed does not want to share its seeker and guidance
    technology with Boeing because of another lawsuit with Boeing over the misuse
    of its intellectual property. Mitigating any potential bias by Boeing in the
    selection of a subcontractor would be difficult and the Air Force had not provided
    Lockheed a fair opportunity to compete as the prime contractor for the SDB Phase
    II program requirements. On November 10, 2004, Lockheed protested the Air
    Force’s decision to award the Phase II requirements sole-source to Boeing. On
    February 18, 2005, GAO sustained the Lockheed SDB protest and recommended
    that the Air Force conduct a competitive procurement for the Phase II
    requirements.

    The Under Secretary of Defense for Acquisition, Technology, and Logistics needs
    to require that the Air Force conduct a competitive procurement for the Phase II
    (seeker technology) requirements and provide oversight of the competition to
    ensure that all competitors receive a fair opportunity to compete in order to obtain
    the most innovative and cost-effective technology solutions.




                                        11
Spiral or Incremental Development
    The Air Force adopted an acquisition strategy that developed the full SDB
    capability over two phases (spiral or incremental development). However, faced
    with a funding shortfall, the Air Force deferred the requirements relating to
    moving targets (Phase II) and changed the evaluation criteria, despite having legal
    advice indicating that there were sufficient legal grounds for a protest. The Air
    Force also notified the competing contractors that winning did not guarantee their
    award of the Phase II requirements. After contract award, the Air Force issued an
    addendum to the sole-source J&A to reinstate or clarify the previously deferred
    requirements. Lockheed, the losing contractor, filed a formal protest to the Air
    Force’s decision because of the former Principal Deputy’s involvement in the
    decision making process. GAO sustained the Lockheed protest and recommended
    that the Air Force conduct a competitive procurement for the Phase II
    requirements.

    Competitive hurdles exist with selecting a source for developing a capability or
    product over a number of spirals or increments. The “Competition in Contracting
    Act of 1984” requires “full and open competition” in Government procurements,
    as obtained through the competitive procedures. In B-276659.2, September 29,
    1997, GAO stated:
           [i]n determining whether a modification triggers the competition
           requirements in CICA [Competition in Contracting Act], we look to
           whether there is a material difference between the modified contract
           and the contract that was originally awarded. Neil R. Gross &
           Co., Inc., supra, 90-1 CPD ¶ 212 at 2-3; see AT&T Communications,
           Inc. v. Wiltel, Inc., supra, at 1205. Evidence of a material difference
           between the modification and the original contract is found by
           examining any changes in the type of work, performance period, and
           costs between the contract as awarded and as modified. Neil R. Gross
           & Co., Inc., supra, 90-1 CPD ¶ 212 at 3. We also consider whether the
           solicitation for the original contract adequately advised offerors of the
           potential for the type of change found in the modification, CAD
           Language Sys., Inc., B-233709, Apr. 3, 1989, 89-1 CPD ¶ 342 at 4, or
           whether the modification is of a nature which potential offerors would
           reasonably have anticipated at the time of the original award.
           American Air Filter Co.--DLA Request for Recon., 57 Comp. Gen.
           567, 573 (1978), 78-1 CPD ¶ 443 at 9-10.

    The decisions the Air Force made during the source selection process for the
    SDB Program highlight the potential for problems with Spiral and Incremental
    Development Acquisition Programs. The reinstatement of the Phase II
    requirements constitutes a significant change in the scope of the original contract.
    Not only does Phase II represent the more difficult work, but it also represents the
    majority of the dollars associated with the program. After deferring Phase II, the
    Air Force notified the competing contractors that winning Phase I did not
    guarantee their award of the deferred requirements. Thus, it is unlikely that the
    Phase II reinstatement could reasonably have been anticipated at the time of the
    original award. The Under Secretary of Defense for Acquisition, Technology,


                                             12
    and Logistics needs to develop guidance relating to spiral or incremental
    development programs for critical products and technologies to ensure the
    acquisition strategy complies with the “Competition in Contracting Act of 1984”
    and provides fairness and best value for DoD.


Recommendations and Management Comments
    We recommend the Under Secretary of Defense for Acquisition, Technology,
    and Logistics:

          1. Provide oversight for and require that the Air Force conduct a
    competitive procurement for the Phase II requirements as recommended by
    the GAO decision.

    Management Comments. The Director, Defense Systems of the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics concurred
    and stated that the Air Force is already executing a revised acquisition strategy,
    subject to the Office of the Secretary of Defense review, based on results of the
    sustained GAO protest.

           2. Develop guidance relating to spiral or incremental development
    programs for critical products and technologies to ensure the acquisition
    strategy complies with the “Competition in Contracting Act of 1984” and
    provides fairness and best value for DoD.

    Management Comments. The Director, Defense Systems of the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics partially
    concurred, stating that existing regulations and policy address spiral development
    for program managers. The Director stated the Office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (Defense Procurement and
    Acquisition Policy) would review the guidance by December 2005 for
    completeness and clarity.




                                        13
Appendix A. Scope and Methodology
      We reviewed the procedures and documentation used to support the Air Force
      decision to award the SDB weapon system contract to Boeing. The evaluation
      was performed at the Air Armament Center, ACC, and various components of the
      Office of the Secretary of the Air Force. The dates of the documentation
      reviewed ranged from October 1997, the date of the ACC Mission Need
      Statement for a miniaturized munitions capability through March 2005, the date
      that the Under Secretary of Defense for Acquisition, Technology, and Logistics
      became the milestone decision authority for all Air Force Acquisition Category
      1C programs. We reviewed the Phase I and Phase II procurement strategy used
      by the Air Force for the SDB weapon system. Further, we interviewed
      representatives from the SDB and Joint Strike Fighter Program Office; ACC;
      various components of the Office of the Secretary of Defense and the Office of
      the Secretary of the Air Force; the Office of the Chief of Naval Operations; and
      relevant DoD contractors.

      We performed this audit from June 2004 through April 2005 in accordance with
      generally accepted government auditing standards.

      We did not review the management control program because our scope was
      limited to reviewing the award of the SDB contract requested by the Defense
      Criminal Investigative Service.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Use of Technical Assistance. We did not use technical assistance to perform this
      audit.

      Government Accountability Office High-Risk Area. GAO has identified
      several high-risk areas in DoD. This report provides coverage of the Defense
      Contract Management area.


Prior Coverage
      During the last 5 years, GAO has issued one report discussing the SDB
      capabilities and program status. Unrestricted GAO reports can be accessed over
      the Internet at http://www.gao.gov.

GAO
      GAO Report No. GAO-04-248, “Defense Acquisitions: Assessments of Major
      Weapon Programs,” March 31, 2004




                                         14
Appendix B. Timeline of Events
                                                               7-Feb-02                                     26-Apr-02                                    23-May-02
                                                               SDD and Seeker Advanced                      Former ASAF/AQ & PD ASAF/AQM                 SDB CO notifies Boeing and Lockheed
                                                               Development/System Integration Phase         developed approach to continue source        that "Winning development and production
                                                               SSP identifies former ASAF/AQ as             selection process. Seeking approval from     of the SDB Program does not guarantee
                                                               SSA. The SSP covers fixed targets            SAF and CSAF, the former ASAF/AQ             award of follow-on work for precision
                                                               (Phase I) and the carriage system, and       stated he will consult with USD(AT&L).       against moving targets [Phase II]."                                                             26-Nov-03
                             28-Sept-01                        mobile/relocatable targets (Phase II).                                                                                                                                                    Lockheed letter to SDB CO expressing
                             CAD contracts awarded to          Phase I, Phase II, and carriage system                                      13-May-02                                                                                                     surprise in sole-source J&A to Boeing
                             Lockheed and Boeing for           are equally weighted in this SSP.                                           SDB CO issues a stop-work order for all tasks                                  *                              for Phase II and interest in competing
                             24 months.                                                                                                    unique to the development of Phase II.                                                                        as prime contractor.
                                                                                             5-Apr-02
                         28-Sept-01                        4-Feb-02                          HQACC e-mail to CSAF            10-May-02                                     5-Nov-02                  5-Jun-03                    25-Nov-03
10-Apr-01                SSDD signed by SSA                Tasker from SSA (former PD        identifies $385.5 million       Meeting with SAF made clear he wants          Former PD ASAF/           Sole-source J&A             Addendum to sole-source J&A
Acquisition Strategy     (former PD ASAF/AQM)              ASAF/AQM) to put together         funding shortfall for SDB       to not hard link the FY 2003 SDB winner       AQM recused herself       signed by former            authorizes sole-source award of   23-Feb-04              10-Nov-04
Panel chaired by former  directs awards of CAD             accelerated program for SDB       Program and recommends          with eventual choice for precision            for employment            ASAF/AQ for                 future spirals (Phase II-moving   DCIS refers SDB        Lockheed protests
PD ASAF/AQM develops contracts to Boeing and               to present to CSAF.               spiral path to Phase II.        against movers (Phase II).                    discussions.              SDB Phase I.                targets) to Boeing. Signed by     matter to audit        SDD contract award
strategy to acquire SDB. Lockheed.                                                                                                                                                                                               former ASAF/AQ.                   for review.            to Boeing for SDB.

                                 =================================================== 24-Month CAD Phase ==================================================
    Apr May Jun Jul Aug Sept Oct Nov Dec Jan Feb Mar Apr May Jun Jul Aug Sept Oct Nov Dec Jan Feb Mar Apr May Jun Jul Aug Sept Oct Nov Dec Jan Feb                                                                                                                     Jun              Nov Dec Jan Feb
    2001 2001 2001 2001 2001 2001 2001 2001 2001 2002 2002 2002 2002 2002 2002 2002 2002 2002 2002 2002 2002 2003 2003 2003 2003 2003 2003 2003 2003 2003 2003 2003 2003 2004 2004                                                                                     2004             2004 2004 2005 2005


       28-Jun-01                                    25-Jan-02                     6-Mar-02                           6-Jun-02                            6-Aug-02                          27-Aug-03                    17-Oct-03               22-Dec-03              15-Jun-04          18-Feb-05
       SDB CAD SSP signed by SSA                    Boeing proposal to SSA        Boeing briefing to SSA             Former ASAF/AQ delegates            Revised SSP for SDB SDD           SDB SSET Chairperson         SDD contract awarded    DCIS discussed         Audit of SDB       Government Accountability
       (former PD ASAF/AQM). SSP                    (former PD ASAF/AQM)          (former ASAF/AQ) on EOC for SSA to former PEO.                         excludes Phase II and is          (Program Manager) briefs     to Boeing for Phase I   procurements related   contract award     Office sustains Lockheed
       covers Phase I (fixed targets)               for early downselect of       downselect on Phase I and carriage                                     signed by SSA (former PEO).       SSA (former PEO) on          and carriage system.    to former PD ASAF/     initiated.         protest.
       and Phase II (moving targets).               Phase I and future spiral     and spiral of Phase II. Boeing                                         Phase I is approximately          final evaluation results.                            AQM with Lockheed.
                                                    of Phase II (reduces          will compete seeker between               7-Jun-02                     twice the weight as the
           29-Jun-01                                emphasis of Phase II at       Lockheed and Northrop Grumman.            SDB Program Manager          carriage system in this SSP.
           Air Force requests                       downselect).                                                            briefs contractors on                                             28-Aug-03                                    Acronyms
           proposals for CAD                                                          8-Mar-02                              SAF-directed changes:                                             SSDD for SDB signed by                       AQ          Acquisition
           Phase.                    6-Dec-01                                         SDB acceleration brief to former      - Defer Phase II,                                                 SSA (former PEO) directs                     ASAF/AQ     Assistant Secretary of the Air Force
                                     Air Combat Command determines                    ASAF/AQ & PD ASAF/AQM                 - Open architecture for future Phase II concepts-                 award to Boeing.                                         for Acquisition
                                     the SDB Program cannot be fully                  shows Lockheed strength in Phase II     Phase I winner may not be choice for Phase II, and                                                           CAD         Component Advanced Development and
                                     funded in the FY 2004 Program                    and mentions Lockheed/Boeing          - Future choice for Phase II uncertain.                           28-Aug-03                                                Integration Phase
                                     Objective Memorandum. The                        partnership.                                                                                            SDB SSET chairperson                         CO          Contracting Officer
                                     Air Force begins exploring options                                                                                                                       (Program Manager) issues                     CSAF        Chief of Staff of the Air Force
                                     to restructure the program.                                                                                                                              Proposal Analysis Report.                    DCIS        Defense Criminal Investigative Service
                                                                                                                                                                                                                                           EOC         Early Operational Capability
                                                                                                               *                                                                                                                           HQACC       Headquarters Air Combat Command
                                                                                                                                                                                                                                           J&A         Justification and Approval
                                                                                                                                                                                                                                           PD ASAF/AQM Principle Deputy Assistant Secretary of the
                                                                                             12 & 18-Mar-02                                                                                                                                            Air Force for Acquisition and Management
                                                                                             SDB acceleration brief to CSAF/SAF shows Lockheed strength in Phase II and                                                                    PEO         Program Executive Officer
                                                                                             mentions Lockheed/Boeing partnership.                                                                                                         SAF         Secretary of the Air Force
                                                                                                                                                                                                                                           SDB         Small Diameter Bomb
                                                                                                    19-Mar-02                                                                                                                              SDD         System Development and Demonstration
                                                                                                    SAF makes it "crystal clear … we are in this for the competition benefits."                                                            SSA         Source Selection Authority
                                                                                                    Winner-take-all downselect remains at end of Sept. 2003.                                                                               SSDD        Source Selection Decision Document
                                                                                                                                                                                                                                           SSET        Source Selection Evaluation Team
                                                                                                                                                                                                                                           SSP         Source Selection Plan
* This section of the report contains source selection sensitive, contractor proprietary, or attorney/client privilege                                                                                                                     USD(AT&L)   Under Secretary of Defense for Acquisition,
  information that has been omitted.                                                                                                                                                                                                                   Technology, and Logistics

                                                        15
15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Combat Command
Commander, Air Armament Center

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Department of Justice
Office of Management and Budget
  Office of Federal Procurement Policy




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                              Final Report
                                               Reference




                                              Enclosure 2
                                              was not
                                              included in
                                              report




                       19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of the Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Henry F. Kleinknecht
Patrick J. Nix
Kent E. Shaw
Jason T. Steinhart
Michael B. Vandesteene
Jillian M. LaLonde
Meredith H. Johnson
Jillisa H. Milner
